<html>
<title> - HEARING ON H.R. 2401, CBRA TECHNICAL CORRECTIONS; AND H.R. 2556, TO REAUTHORIZE THE NORTH AMERICAN WETLANDS CONSERVATION ACT OF 1989</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  HEARING ON H.R. 2401, CBRA TECHNICAL CORRECTIONS; AND H.R. 2556, TO 
    REAUTHORIZE THE NORTH AMERICAN WETLANDS CONSERVATION ACT OF 1989

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                    OCTOBER 23, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-64

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-445 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GIL.CHREST, Maryland        SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                Christopher Stearns, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held October 23, 1997....................................     1

Statement of Members:
    Abercrombie, Hon. Neil, a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................     4
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2
    Tanner, Hon. John, a Representative in Congress from the 
      State of Tennessee.........................................     5
        Prepared statement of....................................     5
    Tauzin, Hon. W. J. ``Billy'', a Representative in Congress 
      from the State of Louisiana................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     3

Statement of Witnesses:
    Barry, Mr. Don, Acting Assistant Secretary, Department of the 
      Interior...................................................     8
        Prepared statement of....................................    29
    Beard, Daniel P., Senior Vice President for Public Policy, 
      National Audubon Society, Washington, DC, prepared 
      statement of...............................................    27
    Connolly, Matthew B., Executive Vice President, Ducks 
      Unlimited, Inc.............................................    16
        Prepared statement of....................................    42
    Peterson, R. Max, Executive Vice President, International 
      Association of Fish and Wildlife Agencies..................    15
        Prepared statement of....................................    35
    Topercer, William E., Ocean Reed Community Association.......    17
        Prepared statement of....................................    51



  HEARING ON H.R. 2401, CBRA TECHNICAL CORRECTIONS; AND H.R. 2556, TO 
    REAUTHORIZE THE NORTH AMERICAN WETLANDS CONSERVATION ACT OF 1989

                              ----------                              


                       THURSDAY, OCTOBER 23, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC
    The Subcommittee met, pursuant to notice, at 2:10 p.m., in 
Room 1324, Longworth House Office Building, Hon. Jim Saxton 
[chairman of the Subcommittee] presiding.
    Mr. Saxton. [presiding] The Subcommittee on Fisheries, 
Wildlife and Oceans will come to order for the purposes of 
holding a hearing.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The purpose of today's hearing is to discuss 
H.R. 2401, which amends the Coastal Barrier Resources System, 
and H.R. 2556, which reauthorizes the North American Wetlands 
Conservation Act and the Partnership for Wildlife Act.
    The Coastal Barrier Resources System is a program which 
attempts to reduce the waste of Federal expenditures by 
restricting Federal development assistance in coastal barriers. 
I have been informed that the property addressed in H.R. 2401 
was mistakenly included in the system and that removing it is 
not controversial. I look forward to hearing from the 
Department of the Interior regarding this bill.
    The North American Wetlands Conservation Act is one of 
several Federal programs to improve wetlands protection in the 
United States, Canada, and Mexico. It matches Federal dollars 
with contributions from State, local, and private organizations 
for wetland conservation projects in the United States, Canada, 
and Mexico that support the North American Waterfowl Management 
Plan.
    The populations of most species of migratory ducks and 
geese in North America have been increasing over the last 
several years. It is impossible to say whether or not any 
single program has caused this increase, but habitat 
conservation is certainly making an important contribution.
    I ask unanimous consent that the rest of my statement be 
included in the record.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good afternoon. The purpose of today's hearing is to 
discuss H.R. 2401, which amends the Coastal Barrier Resources 
System, and H.R. 2556, which reauthorizes the North American 
Wetlands Conservation Act and the Partnerships for Wildlife 
Act.
    The Coastal Barrier Resources System is a program which 
attempts to reduce wasteful Federal expenditures by restricting 
Federal development assistance on coastal barriers. I have been 
informed that the property addressed by H.R. 2401 was 
mistakenly included in the System, and that removing it is not 
controversial. I look forward to hearing from the Department of 
the Interior regarding this bill.
    The North American Wetlands Conservation Act is one of 
several programs devoted to improving wetlands protection in 
the United States, Canada, and Mexico. It matches Federal 
dollars with contributions from state, local, and private 
organizations for wetland conservation projects in the U.S., 
Canada, and Mexico that support the North American Waterfowl 
Management Plan. The program has resulted in the protection of 
more than three million acres of wetlands in the U.S. and 
Canada over the past seven years.
    The populations of most species of migratory ducks and 
geese in North America have been increasing for the last 
several years. It is impossible to say whether or not any 
single program has caused this increase, but habitat 
conservation is certainly making an important contribution. 
There seems to be widespread agreement that the North American 
Wetlands Conservation Act is a critical part of this effort.
    The Partnerships for Wildlife Act was enacted to ensure 
that nongame, non-endangered wildlife did not slip through the 
cracks between existing conservation programs. It also matches 
Federal dollars with state and local funds to support a wide 
variety of wildlife conservation and appreciation projects.
    I look forward to hearing our witnesses' opinions of these 
programs. I am particularly interested in hearing from the 
Administration regarding the level of funding they intend to 
request for the North American Wetlands Conservation Act in 
future fiscal years.

    Mr. Saxton. Does the gentleman from Louisiana have any 
comments to make at this point?

 STATEMENT OF HON. W. J. ``BILLY'' TAUZIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Tauzin. Yes, just to show, Mr. Chairman, because I want 
to call the meeting's attention to something you and I have 
talked about privately. I see that Mr. Tanner has arrived and I 
will be very brief.
    But that is that, when it comes to coastal wetlands, 
preservation of coastal wetlands faces a new and serious 
threat. And I know that the Chairman of the Full Committee does 
not like for me to talk too much about whether or not sea level 
is rising, and whether or not it's affecting global warming, 
and some other reason. But I live in an area where we have 25 
percent of the Nation's wetlands, primarily coastal wetlands.
    And a sea-level rise of a meter, which is predicted by some 
people over the next 50 to 100 years, and a sea-level rise of 
as much as 10 feet, which is predicted by some who claim that 
there are serious changes going on in the Antarctic and some of 
the ice shelves there, either one of those, one foot to one 
yard and one yard to ten feet, would literally drown the 
coastal estuaries and the barrier islands of Louisiana, and 
we're told that that kind of sea-level rise would probably 
affect 50 million people worldwide. It would literally 
obliterate some of the Pacific Island communities, and would 
mean the end of the entire estuaries system in Louisiana and 
many of the coastal areas.
    And while we're discussing conservation efforts, I simply 
wanted to put on the table that, sooner or later, our 
committee, and perhaps the full committee, needs to be looking 
at this new sort of threat to coastal wetlands and barrier 
islands that is only now beginning to be discussed in back 
rooms and in scientific sort of laboratories.
    If, in fact, the numbers we're getting in Louisiana are 
that in the next 50 to 100 years we're going to have a meter of 
water, saltwater, on our coastal estuaries, we have a huge 
problem. The huge problem is that in our current systems of 
wetlands protection, we're not allowed to do a whole lot to 
protect those coastal wetlands from saltwater flooding. We're 
not allowed to do it, and even if you get a permit to do it, 
you have to mitigate that permit.
    It seems to me that we ought to be at least beginning a 
discussion on whether we want to seriously think about making 
sure that if, in fact, we're going to have a sea-level rise, 
despite all the best efforts to sign global warming treaties or 
what-have-you, that we ought to be thinking about a policy for 
coastal wetlands that is separate and apart from national 
wetland policy, that is designed to protect wetlands from other 
threats other than coastal saltwater flooding; and that maybe 
projects designed to protect and preserve coastal wetland areas 
from saltwater flooding ought to be the beneficiary of 
mitigation monies not burdened with that obligation. And that 
sort of discussion ought to begin soon at this level, Mr. 
Chairman.
    While I recognize this bill does not yet deal with that 
issue, perhaps this and other vehicles might be useful vehicles 
for us to not only launch that discussion, but perhaps at some 
point to build a policy that gives us some chance to respond to 
the loss of coastal estuaries and barrier islands, not because 
we're developing them for man's purposes, but because the sea 
itself is going to swallow them with saltwater if we're not 
prepared somehow to defend them against that threat.
    Mr. Chairman, that's basically all I wanted to say. I look 
forward to hearing my friend John Tanner's testimony and the 
other witnesses today.
    Thank you, Mr. Chairman.
    Mr. Saxton. I thank the gentleman from Louisiana for his 
comments.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Thank you, Mr. Chairman.
    I am pleased that you are holding this hearing today on 
H.R. 2556, a bill you introduced to reauthorize the North 
American Wetlands Conservation Act and the Partnerships for 
Wildlife Act.
    The purpose of the North American Wetlands Conservation Act 
is to conserve wetland ecosystems and the species they support, 
in particular migratory waterfowl. This Act provides the 
financial assistance necessary for the implementation of the 
North American Waterfowl Management Plan, an agreement 
originally signed in 1986 to reverse the loss of wetlands 
throughout the continent and stem the decline in migratory bird 
populations.
    Wetlands are among the most productive habitats on earth--
serving as breeding, nursing, and wintering grounds for an 
array of fish and wildlife. In the last two centuries, a 
significant amount of wetlands in the lower 48 states has been 
lost. As a result, certain waterfowl and other migratory birds 
in Canada, Mexico, and the United States have declined. To aid 
in recovery of waterfowl populations, the United States and 
Canada signed the North American Waterfowl Management Plan in 
1986. This plan lays out a strategy to increase waterfowl 
populations by restoring and protecting their habitats. To 
achieve this, the plan relies on partnerships between public 
agencies and private organizations to fund and implement 
wetlands conservation projects.
    The Act seeks to promote public-private partnerships to 
enhance, restore, and manage wetland ecosystems for migratory 
birds and other wetland-dependent species in Canada, Mexico, 
and the United States. Since the Act's inception, 497 wetland 
conservation projects throughout North America have been 
funded.
    To date, such partnerships have protected more than 3.6 
million acres of wetlands, providing vital habitat for a rich 
diversity of wildlife. The Act is recognized as an effective 
model of wetlands management and conservation partnerships.
    Furthermore, on August 29, 1997, I cosigned a letter to the 
leadership of the House and Senate Interior Appropriations 
Subcommittees urging them to allocate $13 million for the North 
American Wetlands Conservation Act in Fiscal Year 1998.
    This Act is an outstanding conservation investment and I 
look forward to hearing from our distinguished witnesses on 
H.R. 2556.

    [The prepared statement of Mr. Abercrombie follows:]

 Statement of Hon. Neil Abercrombie, a Representative in Congress from 
                          the State of Hawaii

MR. CHAIRMAN:
    Thank you for yielding to me to speak in support of 
H.R.2376.
    I am pleased to be a cosponsor this bill and I urge the 
Subcommittee to report the bill to full Committee 
expeditiously.
    The National Fish and Wildlife Foundation, since its 
establishment by Congress in 1984, has leveraged millions of 
dollars in private sector funds and applied them to important 
projects to further the conservation and management of the 
fish, wildlife and plant resources of our nation. For example, 
most recently, the Foundation has in Hawaii focused and funded 
projects in support of coral reefs, such as providing high 
storage capacity computer and software to establish a Hawaii 
Coral Reef Network. It has funded extensive coral reef 
education programs, seminars and training sessions. The reefs 
are an invaluable Hawaiian resource and the Foundation is 
stepping up to help mobilize resources and provide funds for 
technical projects in support of protection efforts.
    The Foundation has over the last 15 years established a 
solid reputation for identifying and supporting habitat 
conservation, environmental education and natural resource 
management in a responsible and constructive manner. Millions 
of Americans have benefited directly or indirectly from its 
projects, including the North American Wetlands Partnership, 
the Neotropical Migratory Bird Conservation Initiative, the 
Conservation Education Initiative. Of particular interest to me 
is the Fisheries Conservation and Management Initiative 
designed to support efforts to halt the decline in inland and 
marine fisheries.
    503 projects have been funded by the Initiative. One 
example is identifying supporting development of sustainable 
economic alternatives for fishermen and their families in the 
Northwest Atlantic region as groundfish stocks have declined.
    Mr. Chairman, the Foundation has provided strong leadership 
in bringing corporate, private and public sector together to 
bear on solving and managing wildlife and marine resources.
    The foundation has been in the forefront of developing 
public/private partnerships as a mechanism for addressing the 
problems and issues over which this Subcommittee has 
jurisdiction.
    I commend the Foundation for its leadership, and I urge the 
Subcommittee to expeditiously approve H.R. 2376.

    Mr. Saxton. So now let me introduce our witnesses.
    First, our colleague John Tanner, the gentleman from 
Tennessee who is also the co-chairman of the Sportsmen's 
Caucus--welcome, John, to our hearing this morning.
    And also, we have with us Mr. Don Barry, who is Acting 
Assistant Secretary for Fish, Wildlife, and Parks for the 
Department of Interior. Welcome, Mr. Barry.
    Mr. Tanner, you may begin as you feel comfortable.

  STATEMENT OF HON. JOHN TANNER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Tanner. Thank you very much, Mr. Chairman, andI'd like 
to thank you and Mr. Tauzin for allowing me to participate 
today.
    I'd like to make a few brief comments about why I think we 
should reauthorize the North American Conservation Act, and 
then submit my intended testimony for the record, with your 
permission.
    As you know, the North American Waterfowl Management Plan 
was implemented in 1986, but it lacked a stable program of 
funding incentives to help pay for the habitat conservation 
needed to meet the waterfowl plan's goals. The vision was 
simple: Stimulate public/private partnerships, leveraging 
limited Federal resources with funding from various state 
agencies and private conservation organizations, like Ducks 
Unlimited and others, to restore and enhance millions of acres 
of habitat for migratory birds.
    With that, the North American Wetlands Conservation Program 
was enacted eight years ago. For every Federal dollar invested 
in habitat through this act, $2 are generated from states and 
private conservation organizations. Nowhere is the impact of 
the act more visible than in Tennessee. Four million dollars in 
seed money has led to a non-Federal conservation investment in 
Tennessee of more than $10 million. Gary Meyers, a friend of 
mine who is the executive director of the Tennessee Wildlife 
Resource Agency, is pursuing now several innovative 
conservative projects relying on the money available through 
the Act.
    One of those projects that I must mention is a ground-
breaking habitat project known as the Mississippi Alluvial 
Valley Habitat Project. The TWRA and 16 partners are working to 
conserve nearly 14,000 acres of bottom-land habitat. What makes 
this unique is that it integrates the goals of the Waterfowl 
Plan with those of Partners in Flight for the first time ever. 
This is one example that has been made possible through the 
actions of the Congress in this regard.
    Clearly, we all share responsibility for the stewardship of 
America's fish, wildlife, and migratory birds. This act is 
evidence, I think, that we take that responsibility seriously, 
and I'd like to recommend it.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tanner follows:]

 Statement of Hon. John Tanner, a Representative in Congress from the 
                           State of Tennessee

    Chairman Saxton, Mr. Abercrombie, Members of the 
Subcommittee, distinguished guests, I want to thank each of you 
for the time, interest, and energy, you have dedicated to 
conserving, restoring, and enhancing America's wildlife and its 
habitats.
    I appreciate the opportunity you have given me here today 
to strongly endorse reauthorization of the North American 
Wetlands Conservation Act (NAWCA) with its current annual 
funding level of $30 million and the conservation partnerships 
that continue to grow from it. Today I want to talk about the 
positive results we've seen from those partnerships not only 
nationally, but in Tennessee and throughout the Lower 
Mississippi Valley.
    The Act and its conservation partnerships are working in 
Tennessee and all across America. As a Tennessee waterfowler, I 
need only tell you that this year's Mid-Winter Survey in the 
Mississippi Flyway found more ducks in Tennessee than Arkansas 
for the first time since 1955. A good part of the reason for 
that kind of success is the improving habitat conditions that 
the North American Wetlands Conservation Act has made possible 
relying on public-private partnerships.
    As many of you know, during the mid-1980s waterfowl numbers 
began to decrease because of both declining habitat conditions 
and dry weather across much of the critical northern breeding 
grounds. Recognizing those disturbing trends, sportsmen, 
conservation and wildlife organizations, and state and Federal 
migratory bird managers worked together with government 
agencies and established the North American Waterfowl 
Management Plan (NAWMP). In 1986, the United States and Canada 
began implementing the NAWMP as a blueprint to protect and 
restore wetland ecosystems upon which waterfowl rely. Mexico 
became a full partner with the Plan's 1994 Update, and the 1998 
Update is expected to be finalized by May 1998.
    State and Federal migratory bird managers set ambitious 
goals for the NAWMP. Through the creation of 13 Joint Ventures, 
they wanted to conserve and restore at least six million acres 
of quality wetland habitat for waterfowl that would support a 
breeding duck population of 62 million ducks and a Fall Flight 
of 100 million ducks with average weather conditions by the 
year 2000.
    But the NAWMP lacked a stable, reasonably consistent 
program of funding incentives to help pay for the habitat 
conservation required to meet the goals of the NAWMP.
    So in 1989 America's sportsmen and women and a wide array 
of conservation organizations worked closely with the Congress 
to unanimously adopt the North American Wetlands Conservation 
Act. President Bush wasted little time signing the bill into 
law. The President, the Congress, and others understood then 
the fiscal and environmental value of non-regulatory 
partnerships to get the most out of limited Federal resources.
    The vision behind it was simple: Stimulate public-private 
partnerships leveraging limited Federal resources with various 
private stakeholders to protect restore and enhance a diversity 
of habitat for migratory birds consistent with the goals of the 
NAWMP.
    First, the Act established a competitive grants program 
managed by the U.S. Fish and Wildlife Service. Second, the Act 
established the North American Wetlands Conservation Council to 
review and recommend wetland conservation projects that are 
ultimately approved by the Migratory Bird Conservation 
Commission, which includes two House members, two Senators, the 
Administrator of the Environmental Protection Agency, and the 
Secretaries of the Interior and Agriculture. So the Congress 
has a role in deciding which projects are funded. Finally, it 
established a fund that relies on an annual appropriation, 
money from a coastal wetland fund, and the interest that 
accrues to the Federal Aid in Wildlife Restoration Trust Fund.
    Earlier this year The Congressional Sportsmen's Caucus led 
an effort to secure strong bipartisan support for higher 
funding allocations to the wetland conservation fund with the 
signatures of more than 100 House members on a letter written 
by Reps. John Dingell and Curt Weldon. With the active support 
of The Sportsmen's Caucus, House and Senate appropriators this 
month agreed to allocate $11.7 million to fund the NAWCA for 
the fiscal year that began October 1. That's nearly $2 million 
over last year's allocation and it represents a strong 
committment by many in the Congress to ensure the continued 
viability of the Act as we work toward meeting the goals of the 
NAWMP by the year 2000.
    As a co-chair of The Sportsmen's Caucus, I'm here today to 
tell you that the Act is working and there is evidence in every 
region of the country.
    In the United States alone, $137 million in Federal funds 
under the Act have been leveraged with $318 million in private 
funding from nearly 600 partners to launch 260 projects in 45 
states. More than 700 partners in the United States, Canada, 
and Mexico, have leveraged $208 million from the Act with $428 
million to conserve more than 10 million acres of wetland 
habitat up and down the four Flyway corridors.
    Every Federal dollar invested in habitat conservation under 
NAWCA, generates another two dollars in state, local, and 
private investment, for habitat work. Clearly, we are realizing 
significant benefits from our limited Federal investment.
    This year's annual survey recorded nearly 43 million 
breeding ducks in key nesting areas, the highest level since 
the survey began in 1955. This year's Fall Flight is expected 
to exceed 92 million ducks, and breeding populations for eight 
of the 10 major duck species are increasing.
    Clearly, our waterfowlers are fortunate to call the 
southern region of The Mississippi Flyway home.
    No where is the impact of the Act more visible than in 
Tennessee and the Lower Mississippi Valley where some of the 
most innovative conservation initiatives are under way in the 
Mississippi Flyway because of partnerships encouraged under the 
North American Wetlands Conservation Act.
    One of the NAWMP's 13 Joint Ventures is the Lower 
Mississippi Valley Joint Venture, which includes virtually all 
of the congressional district that I represent.
    Since the LMV Joint Venture was launched in 1989, 27 new 
state wildlife management areas covering more than 93,000 acres 
have been created, and 22 other state wildlife management areas 
have been expanded by 39,000 acres. In addition, seven new 
National Wildlife Refuges covering 68,000 acres have been 
established, and 15 others have been expanded by more than 
163,000 acres. Another 63,000 acres of wetland habitat has been 
restored and enhanced on other state and Federal management 
lands. NAWCA has made $18 million available for habitat 
conservation in the LMV Joint Venture leading to $36 million in 
non-Federal partner contributions.
    Perhaps the most significant contribution has been the 
involvement of more than 2,000 private landowners who have 
joined forces with the region's fish and wildlife agencies, 
sportsmen, and conservation organizations to voluntarily 
restore and enhance 140,000 acres.
    In Tennessee alone, eight projects that depend on NAWCA 
funding are either complete or underway including the 
establishment of the Cold Creek Waterfowl Refuge in Lauderdale 
County, Tennessee, that we dedicated just this past August. The 
Act has provided $4.1 million as seed money for those projects 
and that Federal investment has generated more than $10 million 
in additional funds to make these conservation projects 
possible.
    One of those projects is the Mississippi Alluvial Valley 
Habitat Project. It's the brainchild of Gary Myers, the 
executive director of the Tennessee Wildlife Resources Agency 
and a long-time friend who is one of this country's most 
innovative state fish and wildlife directors. Gary and the TWRA 
last year launched this precedent-setting project that will 
ultimately include nearly 14,000 acres of bottomland habitat 
along the Lower Mississippi River. With $1.5 million in NAWCA 
funds approved last year and in hand, state and private 
partners kicked in another $2.44 million needed to complete the 
project.
    What makes-this ground-breaking project so unique is that 
for the first time ever, Gary, the TWRA, and 16 other agencies 
and private partners he has assembled, are seeking to integrate 
the goals of the North American Waterfowl Management Plan with 
the goals of Partners In Flight (PIF). PIF is in many ways 
emerging as a companion management plan to the NAWMP that 
focuses on non-game migratory birds that winter in the tropics 
and nest in the United States and Canada.
    The MAV Habitat Project is the only one of its kind and it 
recognizes the basic fact that sound habitat conservation, 
restoration, and enhancement, benefits all migratory birds as 
well as many species of wildlife. This is happening with the 
support and active involvement of local farmers. NAWCA funds 
are making it happen.
    Clearly, without NAWCA and the creative public-private 
partnerships it promotes, much of this habitat conservation 
would not be possible. So it is critically important that we 
continue to make conservation funding available through this 
Act. It's not the only cost-share program managed by the 
Federal Government, but it surely is one of the most successful 
with benefits that go well beyond the Act's original goals.
    Indeed, over the past eight years we've learned that the 
Act's conservation successes reach far beyond ducks and their 
habitat. Freshwater fisheries and many wildlife species benefit 
tremendously from healthy wetland ecosystems that are the 
result of the kind of habitat conservation made possible by 
this Act. Healthy wetlands also mitigate flooding and the 
damaging effects of soil erosion not-to-mention playing a major 
role in the replenishing and purification of ground and surface 
water by filtering out pollutants. That's important 
particularly in West Tennessee where cities like Memphis rely 
solely on ground water aquifers for their drinking water.
    The Act enjoys the support of many Members of Congress, the 
Administration, the International Association of Fish and 
Wildlife Agencies, and many conservation organizations led by 
Ducks Unlimited.
    And if you don't believe this kind of habitat conservation 
is important to our economy as well as wildlife, fish, and the 
environment, just look at this year's National Survey of 
Hunting, Fishing and Wildlife-Associated Recreation. In 1996, 
America's 14 million hunters spent $21 billion and 35 million 
anglers spent $38 billion pursuing the twin traditions of 
hunting and fishing. Another 63 million Americans spent $31 
billion observing and photographing wildlife. In Tennessee 
alone, hunting, fishing, and wildlife observation activities 
pumped nearly $1.8 billion into the state's economy creating 
thousands of jobs for our citizens.
    That economic investment would not happen without the kind 
of solid habitat conservation made possible in large part by 
the partnership funds available through the North American 
Wetlands Conservation Act with the help of America's sportsmen 
and women.
    Thomas Jefferson once said, ``The strength and dignity of a 
nation are determined by how it cares for its resources.'' With 
that I would encourage the Subcommittee to reauthorize the Act 
along with its annual authorized funding level of $30 million 
to ensure that sound wetland conservation initiatives can 
continue to be funded into the 21st Century.
    For decades we've known that sound habitat conservation and 
restoration is the only way to truly ensure that we can pass 
from one generation to the next the American traditions of 
hunting, fishing, and conservation. Because in the end we all 
share responsibility for the stewardship of America's wildlife, 
migratory birds, and fisheries.
    Again, thank you for allowing me the opportunity to 
participate in today's hearing. If I or The Sportsmen's Caucus 
can be of additional assistance on this or any other hunting, 
fishing, and conservation issues please let us know.
                                ------                                


      Letter submitted by the Tennessee Wildlife Resources Agency

October 16, 1997

Dear Mr. Chairman:
    There have been numerous wetland conservation projects 
conserved, restored and enhanced as the result of North 
American Wetlands Conservation Act (NAWCA) appropriations. 
Another very positive attribute has been the strong support of 
private partners contributing $2 for every $1 of 
appropriations. NAWCA has proven to be a successful, proactive, 
non-contentious wildlife conservation program that a large 
cross section of entities support.
    Annual requests for NAWCA grants exceed available funding. 
For example, in FY '97, project requests were more than $41 
million. Over the last three years, NAWCA appropriations have 
incrementally increased to meet this growing demand for wetland 
conservation projects. NAWCA is currently authorized at $30 
million. However, the recently introduced legislation reduces 
the authorized funding level to $15 million. Now is not the 
time to hamper NAWCA's growth and diminish the program's 
investment in wetlands conservation. NAWCA is an incentive 
based, landowner friendly program that fosters the development 
of partnerships to protect North America's migratory bird 
habitat in a continental undertaking.
    Our Tennessee Wildlife Resources Agency very strongly 
supports NAWCA and the North American Waterfowl Management Plan 
(NAWMP) and ask for your support for continued authorization of 
$30 million per year towards this conservation effort.
    Thank you for your support and commitment to wetlands and 
wildlife conservation.

Sincerely,
Gary T. Myers
Executive Director
Tennessee Wildlife Resources Agency

    Mr. Saxton. Thank you very much, John, for the very 
articulate and concise statement.
    Mr. Barry?

    STATEMENT OF MR. DON BARRY, ACTING ASSISTANT SECRETARY, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Barry. I, too, would like to have my formal written 
statement submitted for the record and just make a few oral 
comments, if I could.
    As you know, Mr. Chairman, in 1989, when the North American 
Wetlands Conservation Act was moving through the Merchant 
Marine and Fisheries Committee, I was a staff member at that 
point, working for the chairman of the committee, Walter Jones. 
I think for those of us that worked on this legislation, none 
of us--although we were optimistic as to what it could 
produce--ever anticipated that it would be as large a success, 
and would have the impact that it has had.
    I know that both you and Congressman Tauzin were members of 
that committee. I'm sure you're proud of your support of the 
legislation when it moved through in 1989. And I'm here to tell 
you, as one of the officials responsible for its 
implementation, the Act is achieving exactly the purposes and 
goals you had in mind. And so it's work well done and I would 
commend you for your past efforts.
    Let me just give you a few numbers to provide you some 
examples as to why this has been such a success.
    In the United States alone, the investment of 137 million 
Federal dollars has generated over $318 million in private 
partner funds, including state partners. We've had over 260 
different projects in the United States with 577 different 
partners involved.
    If you take a look at the overall program throughout all of 
North America, the investment of about 208 million Federal 
dollars has generated over $428 million partner funds, for a 
total of $636 million. We've had over 700 partners throughout 
the North American continent participating in the 
implementation of this program.
    And so in times of increasing budget scarcity, I think what 
we're doing here is getting a program that generates money, 
considerable amounts of money, and more importantly, develops 
real partnership networks in support of the overall goal of 
waterfowl restoration and wetlands enhancement.
    The two issues of interest to the administration under this 
particular bill would be raising the authorization level from 
$15 million to $30 million, as it had been previously. I'm 
informed that I believe that that idea is generally acceptable 
to the leadership of the committee.
    We are also interested in recommending that the 
reauthorization for the Act go on a five-year cycle, not a 
four-year cycle, so it could be more in sync with the five-year 
planning cycle that the North American Waterfowl Management 
Plan is on, and that way we'll always have both the Act and the 
plan itself in complete harmony.
    With regards to the Partnerships for Wildlife statute, this 
is the only federally-administered grant program for states 
that supports non-game species conservation. It addresses the 
needs that have been identified by the states. The Fish and 
Wildlife Service works in very close partnership with the state 
fish and wildlife agencies. The wildlife agencies are required 
to find other additional private sector funding to match their 
dollars, and, again, I think for the small investment that it's 
provided, it has been the only source of Federal funding to 
support state efforts to help avoid listings under the 
Endangered Species Act and to provide better information on 
non-listed species.
    The one area that I would note that the Fish and Wildlife 
Service has brought to my attention under this particular Act, 
the current Act authorizes, I believe, a 4 percent assessment 
of administrative costs. Because the overall amount for this 
program has been appropriated such low levels, and since this 
program provides basically a very small grant, the Fish and 
Wildlife Service believes that the 4 percent assessment for 
administrative costs is inadequate to cover their actual 
expenses in managing the program. We would like to at least 
offer to work with the Committee and the Committee staff to 
discuss this in more detail, and to see if there is an al-

ternative way that administrative costs can be handled for 
administering the program.
    Last, but not least, we are talking--we're considering a 
bill which would correct a technical error in one of the 
coastal barrier maps that occurred in 1990. This involves 
Florida map 35P, as it's known, and it was designed originally 
to include an area that's known as an otherwise protected area. 
Unintentionally, property which had already been developed was 
included within the coastal barrier unit, and this bill today 
would propose to correct the--make a technical correction to 
the coastal barrier maps to correct the error that was made and 
to exclude an area that did not qualify originally, at the time 
that the original maps were developed. This administration 
supports the technical correction. We believe it corrects an 
error that we all made at the time.
    And I think, just as an aside, I would like to particularly 
urge this Committee--this is a small bill. This is a small 
correction that it would make, but I would urge the Committee 
not to overlook it in the rush of other business that you have.
    A lot of us in this town talk about private property rights 
and respecting private property rights, and this is a situation 
where we have an opportunity to correct what was clearly an 
administrative error in the designation of the maps, and I 
would just urge you to look for some opportunity to move this 
particular bill, so the affected landowners feel that their 
needs are being addressed. I don't think it would be very 
difficult at all to attach this as an amendment to some other 
proposal or something like that. And I would just urge you to 
not overlook and ignore this proposal merely because it seems 
to address the very small acreage of ground.
    On balance, we support all of these bills, and I'm prepared 
to answer any questions that you might have. Thank you very 
much.
    [The prepared statement of Mr. Barry may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Mr. Barry. I have just two 
questions--one that relates directly to the authorization level 
for H.R. 2556.
    As you know, the bill, as currently written, would 
authorize the expenditure of $15 million annually, and I 
propose to increase that to $30 million annually, which I think 
you agree with. Can we also assume that the administration will 
then request more than $15--perhaps as much as $30--million in 
funding for fiscal year 1999?
    Mr. Barry. Well, as you know, I would probable be dragged 
out of my office and shot by OMB if I would suggest, 
prematurely, what the administration will be including in its 
fiscal year 1999 proposal. I think, in all seriousness, this is 
the right thing to do, to increase the authorization.
    What the numbers show us is that the support for the North 
American Act is growing constantly, and I think what we're 
suggesting it that if this is a five-year authorization, we 
should not prejudge what levels of appropriated funding will be 
provided and what the future levels of appropriated requests 
could be. And I think it's wise to give yourself that cushion 
to allow future administrations to increase the funding level, 
taking into account all of their overall competing budget 
needs. So I think it's a wise move and we support it.
    Mr. Saxton. I think we get it. Okay.
    Mr. Barry. So I will pick up the phone and call you the day 
after the President delivers his budget message, and tell you 
what we've asked for.
    Mr. Saxton. Some would suggest that you may be dragged out 
and shot if you didn't make the request.
    Mr. Barry. That's right. I'll remember that, too.
    [Laughter.]
    Mr. Saxton. Let me ask another question that's related, but 
not as directly as my first question. We have been, 
collectively, quite successful--I know that there are some 
members--in fact, the executive director of Ducks Unlimited is 
here today, and we want to make sure that you know you're 
welcome. We are pleased you're here.
    We have collectively been quite successful in helping 
Mother Nature to provide for a rebound in waterfowl 
populations. Migratory Canada geese are coming back, and there 
are more resident Canada geese around the shore in New Jersey 
than anybody ever wanted to see. The black duck population, and 
mallard population, and other ducks have rebounded. More 
cormorants are around than I ever anticipated seeing. Perhaps 
the most astounding species, in terms of its current 
population, however, is the snow goose. And it has apparently 
rebounded to the point where it may be eating itself, 
literally, out of house and home in the Arctic.
    And I'm just wondering if you had any thoughts relative to 
this issue. There are some Members of Congress who are this 
very day trying to fashion, or at least talk about, some 
solutions to what has been described to me as a population 
which is about to be double what the tundra can sustain. I'm 
curious to know what the position of the Fish and Wildlife 
Service may be, or any other thoughts that you may have 
relative to this issue.
    Mr. Barry. Mr. Chairman, the current population levels of 
snow geese in this country is of significant concern to the 
Fish and Wildlife Service. I know that even Secretary Babbitt 
has received various phone call from his counterpart in Canada, 
other places, discussing this particular problem.
    I have personally not worked on this issue myself. I have 
listened to other people talk about it. I know the Service is 
very concerned about it, as is the Secretary. What I would be 
more than willing to do is to have the appropriate people from 
the Fish and Wildlife Service come up and talk to your staff to 
give you an update on the status of their strategies and 
thinking for how to deal with the overpopulation problem.
    You're absolutely right. The snow geese, when they 
congregate in certain area, can have a very significant adverse 
impact on the habitat, especially up in the Arctic area. And 
the Service is assessing what some of the different options or 
responses might be for dealing with the overpopulation problem.
    Mr. Saxton. There seems to be two schools of thought. One 
school of thought is that we have a collective responsibility 
of trying to deal with the issue in some way, and the other 
school of thought is that somehow Mother Nature will take care 
of this on her own.
    We have provided a food source for this large population 
when they're not in the Arctic, and then when this huge 
population returns to the Arctic, they apparently do so much 
damage to the tundra that the tundra will not recover any time 
in the near future. This is a problem that we in the United 
States have contributed to, and we must seriously look at the 
issue and determine whether or not to take action and what type 
of action we should take.
    So I would certainly very much appreciate--actually, before 
we leave at the end of this session, I would really like to 
have some serious discussion with your folks relative to this, 
to see if we can agree from the administration point of view, 
as well as from the Subcommittee's point of view, what we ought 
to do.
    Mr. Barry. Mr. Chairman, as soon as I get back to the 
Department, I will convey to them your request for a meeting to 
discuss the current situation and I will make sure it takes 
place.
    Mr. Saxton. I appreciate that very much.
    Mr. Tanner?
    Mr. Tanner. Chairman, the Chair is quite correct. The 
migratory waterfowl population has recovered. The Mississippi 
flyway, which is where I have to live--Billy lives on downriver 
in Memphis--is experiencing a remarkable recovery in the number 
of quality game birds: ducks, geese, and so on.
    We are aware of the snow goose in the Sportsmen's Caucus 
and we would like to be of any help that the Chair would desire 
from us at the proper time, and when all this takes place, be 
anxious to lend whatever assistance.
    Mr. Saxton. Thank you very much. Mr. Tauzin?
    Mr. Tauzin. I was going to tell you, John, it's ``snow'' 
big secret. You've got to take some of the ``snow'' hunting 
signs down.
    [Laughter.]
    Mr. Tauzin. In any event, we had a similar problems with 
alligators, by the way. When I first got here in 1980, 
alligators were on the endangered species list. My first visit 
to the Secretary of the Interior was a simple request: Either 
take them off or put Cajuns on, because there were more of them 
than us.
    [Laughter.]
    Mr. Tauzin. And I was in the marsh with a friend who is 
here with me today, Billy Coyle from Tarragone Parish. When we 
were there a couple weeks ago, end of July, I've never seen so 
many alligators. We no longer have a nutria problem in 
Louisiana.
    [Laughter.]
    Mr. Tauzin. It's amazing. I mean, we do affect sometimes 
unintended consequences with some of our conservation efforts 
and, while they're all well intended, obviously, we have to 
sort of react when things get out of hand. I don't know if we 
can just leave it to Mother Nature, or whether we have to 
seriously think about the consequences we helped create, 
sometimes a damaged habitat for other species, and we got a 
problem here.
    I wanted to make just one point and then ask a couple of 
questions of you. The first is, as John pointed out, 
something's working and I want to thank you for your comments 
about the act.
    I think the Act has contributed and I think a lot of other 
good conservation efforts have all contributed to some of the 
best flyway numbers I've ever seen. I mean, we get reports in 
Louisiana, John, that this is the best hatching year that is on 
record in terms of duck populations and geese populations.
    Mr. Tanner. I heard over 10 years ago, they said there was 
an estimated 40 million ducks on the Mississippi flyway, and 
this year they are saying it'll be a 100 million.
    Mr. Tauzin. Yes, some remarkable numbers, and we're 
beginning to see those reports now coming from our home 
districts, and so something's working. And we have a lot, I 
guess, to be thankful for and that, in fact, we have something 
working.
    What I love about this approach, of course, is that, you 
know, we've had these property rights fights. They'll go on, 
I'm sure. But this approach is so right because it calls upon 
the purchase of easements and the setting aside of critical 
areas, by purchasing them for the general public's benefit and 
for the protection of the species in conservation, which avoids 
the ugly fight between the property owners and conservationists 
over how best to protect these areas, and naturally, 
accommodates very well to the property interest and to the 
interest of conservation. That's a good approach and I want to 
commend all of you who helped support it and push it forward.
    I do have a couple questions, and maybe you can help me. 
What is the criteria for deciding whether a project qualifies 
under the act? Who's involved in setting, in effect, making 
those decisions?
    Mr. Barry. There is a statute itself that sets out some 
general criteria. I think there are about seven of them, and 
the North American Wetlands Council has developed some 
additional guidance to provide criteria for the selection of 
projects.
    They range from the logical one about how the proposal 
contributes to the conservation of waterfowl habitat to other 
factors as well: whether it benefits other wetland-dependant or 
wetland-associated migratory birds; whether the proposal would 
contribute to the long-term conservation of wetlands and 
associated habitats; whether it provides any benefit to 
endangered, or threatened, or candidate or proposed for list of 
endangered species; the partnership opportunities, whether it 
would involve a large number of people or just one or two 
people.
    So there are about seven criteria that the North American 
Wetlands Council uses, in addition to the statutory criteria or 
the further embellishment of the statutory criteria. And it's 
through consideration and ultimate ranking of all of those 
criteria that you'll decide which projects it can go with.
    The problem is, that there are many more projects proposed 
than they have money for, and so they need to rank them and 
make some very tough decisions.
    Mr. Tauzin. Yes. Are there any non-game wildlife 
conservation projects funded the Partnerships for Wildlife Act, 
do you know?
    Mr. Barry. There are a number of non-game proposals. Let me 
put it this way: There a number of projects which have 
significant benefits for non-game migratory birds. There a 
number of non-game species which are dependant upon wetlands. 
So to the extent that you have a well-thought-out, developed 
wetlands conservation initiative that may provide benefits for 
waterfowl, there are frequently other species as well that 
benefit.
    Mr. Tauzin. Sure, they're ancillary, but are there any that 
have no non-game components at all? Or do they all combine both 
the game and non-game aspect?
    Mr. Barry, Congressman. did you mean under the Partnerships 
of Wildlife Program or the North American?
    Mr. Tauzin. Yes, under the Partnership.
    Mr. Barry. Oh, definitely. I mean, the whole program is 
targeted towards non-game species.
    Mr. Tauzin. So under the Partnership Act, it is non-game. 
Are there non-game conservation projects funded under the other 
Act?
    Mr. Barry. Under the North American?
    Mr. Tauzin. Yes.
    Mr. Barry. Yes, I think the answer to that would be that 
there have been no projects under the North American Wetland 
Conservation Act which were exclusively for non-game species, 
but there are clearly a number of projects which have 
collateral benefits.
    Mr. Tauzin. Collateral benefits?
    Mr. Barry. Exactly.
    Mr. Tauzin. Now, in defining the non-game wildlife 
conservation projects that are, in fact, funded under the 
Partnerships, can you give us some examples of what types of 
projects those look like?
    Mr. Barry. There have been a number of, I could probably 
find a list of----
    Mr. Tauzin. Just give a couple of examples.
    Mr. Barry. I'll be giving Max Peterson's testimony here.
    Everything from important bird areas, small mammal baseline 
monitoring, some programs involving studies on bats, on pond 
turtle, neotropical birds. There's considerable concern about 
the effects of our rate of loss of neotropical birds. So it's a 
soup-to-nuts thing. Virtually every little critter that hops, 
crawls, or slithers has an opportunity to be proposed by a 
state fish and wildlife agency for support under this program.
    Mr. Tauzin. All right. Thank you very much.
    Mr. Saxton. Mr. Barry, the Fish and Wildlife Service has 
prepared a map to carry out the changes proposed by Congressman 
Deutsch. The map is now on file with the Committee. For the 
record, does that map place the new boundary line of FL35P so 
that it (a) follows the existing property line that separates 
the platted private property behind the homes located on the 
east side of Baker Road from the State conservation lands that 
adjoins those home lots, and does it follow the water line of 
the State-owned and protected property on the north side of the 
Harbor Island Drive and water line at the end of the full 
length of the lots located on Baker Drive?
    Mr. Barry. I have been instructed that the correct and 
proper answer is yes.
    Mr. Saxton. Thank you very much.
    [Laughter.]
    Mr. Saxton. Do you have any other questions? Any other 
questions, Mr. Tauzin?
    I would just--let me thank you, Mr. Barry, and also Mr. 
Tanner, who has had to leave, for being with us today.
    I would also like to note again that, as Mr. Tauzin, I 
know, will agree, the folks who are here with us in this room 
from the Fish and wildlife Service are to be commended for the 
great job that we've done collectively, as well as the folks 
that are here from Ducks Unlimited, lead by Matt Connolly 
today. This is a great private/public partnership success, in 
terms of rebuilding of the wildlife populations that we have 
mentioned today.
    I would like to unanimous consent that the statements of 
Mr. Young and Mr. Abercrombie be placed in the records 
following Mr. Tauzin's statement.
    Mr. Tauzin. Can I object?
    Mr. Saxton. You can if you want, but you can't if you want 
any more bills.
    [Laughter.]
    Mr. Saxton. Thank you very much. The hearing----
    Mr. Barry. I was just going to mention one thing. I will 
make sure that the Fish and Wildlife Service follows up 
immediately and sets up a meeting with you on snow goose.
    Mr. Saxton. Okay, we'll move onto our next panel, and thank 
you, Mr. Barry, for being here.
    And the second panel is, of course, Mr. Max Peterson, 
executive director of the International Association of Fish and 
Wildlife Agencies; Mr. Matt Connolly, executive vice president 
of Ducks Unlimited, and Mr. Bill Topercer, Ocean Reef Community 
Association.
    We have also been joined also by the gentleman from the 
eastern shore of Maryland, Mr. Gilchrest, and we are glad he 
has been able to join us.
    Max, you may begin at your leisure.

    STATEMENT OF R. MAX PETERSON, EXECUTIVE VICE PRESIDENT, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Peterson. Thank you, Mr. Chairman.
    You have my statement, so I'll save you some time by 
briefing it. Okay?
    Mr. Saxton. Thank you.
    Mr. Peterson. I'll put the entire statement in the record.
    As you know, Mr. Chairman, the states, represented by the 
International, were original supporters of the 1989 North 
American Wetlands Conservation Act. As mentioned earlier, there 
are three of our state directors who serve on the council that 
ranks all the projects, along with people from other 
organizations.
    So we have been very much involved in the North American 
Wetlands Conservation Act since its inception. As has been said 
by you and by Congressman Tauzin, I think in 1989 we didn't 
really realize how successful this program could be, because 
these joint ventures that were established all over the 
country, which were just an idea at that time, really became 
the engine behind this, and using the voluntary nonregulatory 
approaches that Congressman Gilchrest and others talked about 
earlier this week on the Chesapeake Bay, really became the 
driving force behind the remarkable things that have been 
accomplished by this Act.
    So we certainly support the reauthorization of it. We 
support the increase to $30 million in the authorization level. 
We support the five-year cycle which coincides with the plan.
    I have in my testimony some statistics which mostly have 
been covered by Acting Assistant Secretary Don Barry earlier. 
So I won't repeat them, except to say that there are projects 
in almost every State in the Union--you're familiar with the 
projects around Cape May in your own State, where, in answer to 
earlier questions, when you do some work for wetland projects 
there, you benefit both game and non-game. In fact, some of the 
beneficiaries there have been not only waterfowl, but a large 
variety of other migratory birds which use that area. And even 
areas like North Dakota, which is an important waterfowl area, 
some of the most important beneficiaries have been non-game 
species.
    So this makes it, in our view, a model program, where the 
private sector multiplies the money. The states provide in many 
cases the match, or at least part of the match. I think the 
summary of this, I would say, is that if we had more programs 
like this, where we use the voluntary, nonregulatory, 
incentive-based approach for getting things done, we could see 
some remarkable things happen throughout the land.
    Let me, then, turn briefly to the other Act, the 
reauthorization of the Partnership for Wildlife Act, which, as 
indicated earlier, does concentrate on non-game species. It 
does require both a state match and a private match. So $1 
starts out and it becomes $3, which is exactly what happens 
also in the North American Act; it becomes $3.
    It does, though, in this case, by only providing a million 
dollars, it's really a drop in the bucket, because the needs 
out there, as you are aware, Mr. Chairman, our needs analysis 
for non-game indicates that about $350 million a year is 
needed, not $1 million. But, still this little $1 million, 
which becomes $3 million, is an important start in doing things 
for non-game. So we support its reauthorization. We would ask 
that you increase the reauthorization to $6.5 million, so that 
we might see this grow some over time.
    Mr. Chairman, that's a kind of quick summary of my 
testimony, and I'll be glad to help answer questions later. 
Thank you.
    [The prepared statement of Mr. Peterson may be found at end 
of hearing.]
    Mr. Saxton. Thank you very, Max.
    Mr. Connolly?

  STATEMENT OF MATTHEW B. CONNOLLY, EXECUTIVE VICE PRESIDENT, 
                     DUCKS UNLIMITED, INC.

    Mr. Connolly. Yes, Mr. Chairman. Thank you very much. We 
deeply appreciate this opportunity to express the opinions of 
Ducks Unlimited concerning the reauthorization of the North 
American Wetlands Conservation Act.
    And I won't belabor the subject because I fully expect my 
mother to come in the door and cut up a big apple pie for us 
here. It seems like everyone has been comforted by what has 
happened in the past 10 years, and I don't think we can rest on 
our laurels, but I think there's a great deal to be proud of 
here.
    We have a program that has in its origins a bottoms-up 
process. Projects come to us from the grassroots level. There 
is a participatory process that's done through volunteers on 
the staff of the Wetlands Council that are provided by state 
agencies, by the Federal Government, by not-for-profits. This 
has attracted the support of Fortune 500 corporations. It has 
had a Boy Scout, an Eagle Scout, come and propose a project to 
be funded, and has been funded.
    What it has as a great virtue is its flexibility. It has no 
burdensome bureaucracy. It has this bottoms-up process that I 
think has given it great, great value with the money that the 
Congress has invested on behalf of the American people. And I 
don't think we can overstate how it has caused creativity in 
partnerships across the country.
    State and Federal agencies often in the past a decade ago 
had a certain antagonistic relationship. There is no longer 
that kind of a relationship. This serves as a catalyst, and it 
serves most beautifully by identifying an opportunity in the 
form of a project, and at that grassroots level, in a voluntary 
way, people come together with a common spirit, and the value 
here is this kick-starts them. They know there's a place to go.
    Now the question was asked by Congressman Tauzin: Who 
participates in the selection? And a body that we've forgotten 
about who actually makes the final decision is the Migratory 
Bird Conservation Commission, which has four Members of the 
Congress participate in that. This is a program that has a 
continuing input on the part of Members of the Congress. In the 
House, Congressman Weldon and Congressman Dingell participate 
in this process. They are the final deciders on what is funded.
    So without being repetitive, I must tell you that this has 
just been so important, and if we can take any indicator of has 
it worked, let us look to a very neutral source; we don't need 
scientists; we don't need computer programs; we don't need to 
build models. As we've heard stated, what we have is waterfowl 
10 years ago, that there were species were saying were going to 
have to be listed as endangered at record lows, and now the 
highest number ever counted by the Fish and Wildlife Service in 
its surveying records--the birds, the resource speaks. Is it 
working? Indeed, it is. And I thank you and the Subcommittee 
for the wisdom that you've shown in the past in making it work. 
Thank you.
    [The prepared statement of Mr. Connolly may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Mr. Connolly.
    Mr. Topercer?

    STATEMENT OF WILLIAM E. TOPERCER, OCEAN REED COMMUNITY 
                          ASSOCIATION

    Mr. Topercer. Thank you, Mr. Chairman. My name is Bill 
Topercer, and I'm a homeowner in Key Largo, Florida. On behalf 
of the Ocean Reef Community Association, and our many aggrieved 
homeowners, I want to thank you and the members of the 
Subcommittee for inviting me to testify on H.R. 2401.
    H.R. 2401 makes a technical correction to the Coastal 
Barrier Resources Act, CBRA, withdrawing 11.7 erroneously 
included acres from FL35P of the Coastal Barrier Resources 
System. Similarly, it provides an opportunity to add 3.2 acres 
that were accidentally left the unit boundaries were first 
mapped out.
    By way of background, Ocean Reef Complex is a residential 
community designed in 1974. The master plan was approved by 
Monroe County and the State of Florida in 1976, has been in 
existence for over 20 years and is the home to almost 3,000 
people.
    Back in 1987, when the Department of Interior was reviewing 
properties in the Florida Keys for addition to the systems, 
representatives of Ocean Reef came to Washington to meet with 
officials of the Coastal Barrier Study Group. They were told 
that because Ocean Reef Complex was already developed according 
to the guidelines set forth in the Coastal Barrier Resources 
Act, that Ocean Reef would be excluded from the Coastal Barrier 
Resource System. In fact, when the Coastal Barrier Study Group 
made its final recommendations to the Secretary in 1988, all of 
Ocean Reef was excluded. Similarly, the Secretary's 
recommendations to Congress excluded all of Ocean Reef. 
However, in 1990, the Department of Interior reviewed the 
existing coastal barrier maps in order to add otherwise 
protected areas, or OPAs, to the system under the Coastal 
Barrier Improvement Act of 1990, better known as CBIA.
    Section 2(c) of the CBIA defines that OPA in the original 
Act is an undeveloped coastal barrier within the boundaries of 
an area established under Federal, state, or local law, or held 
by a qualified organization primarily for wildlife refuge, 
sanctuary, recreational, or natural resource conservation 
purposes. Essentially, an OPA is either public property or 
property held by a nonprofit organization for conservation 
purposes.
    When the Fish and Wildlife Service drew the boundaries 
depicting what was intended to have been the undeveloped public 
property included in FL35P, they accidentally included 21 lots 
and 11.7 acres of private property that is part of the Ocean 
Reef development. This property was erroneously included in 
FL35P and should be removed.
    OPAs are not supposed to include private property unless 
the property was an inholding within the established refuge, 
park, or sanctuary. Our property is not an inholding. It was, 
and remains, completely privately-owned property not within the 
boundaries of any park, refuge, or sanctuary, and therefore, 
should not have been included in the OPA.
    For your reference, I've brought with me a 1980 aerial 
photo from which you can easily see both the 21 lots and 9 
homes that existed prior to 1990 in FL35P of the system, the 
small square area in the center of the map there, on the top of 
the center.
    I will attach to my statement to be included in the record 
certificates of occupancy and corresponding plat maps from 
Monroe County Building and Zoning Department. Equally 
important, I will present a letter from the Director of the 
United States Fish and Wildlife Service acknowledging that 
mistake and stating that modification of this boundary 
constitutes a valid technical correction which the Fish and 
Wildlife Service supports.
    In addition to the fact that the 11.7 acres in unit FL35P 
were erroneously included because they are private property, it 
is clear that the entire Ocean Reef Complex was considered a 
cluster devel-

opment by Fish and Wildlife Service from inception. In a 1996 
letter to Senator Bob Graham of Florida, Acting Fish and 
Wildlife Service Director, John Rogers, distinguished Ocean 
Reef from any other property that was included in the system. 
He said, ``Ocean Reef was excluded from the system because the 
Service found it to be a cluster of development prior to when 
FL-35 was included in the system.'' Clearly, by its own 
admissions, which is now stated officially in two documents, 
the Service did not intend the Ocean Reef development ever to 
be included in the Coastal Barrier System.
    The congressional and administrative attempt to exclude the 
private property in CBRA's unit FL35P is unequivocal when the 
relevant maps of unit 35P are reviewed side by side. It is 
clear that when the map lines were transcribed in the final map 
of 1990, they did not properly reflect the lines Congress or 
Fish and Wildlife Service originally drew excluding the private 
property.
    Unit FL35P is bifurcated by the entire of the Ocean Reef 
Complex that was excluded as developed. It is clear from the 
map lines that both Congress and Fish and Wildlife intended 
that all of Ocean Reef was to be excluded. I would like to 
offer the members a chance to review the maps which are 
included in your map depicting both the makeup of the entire 
FL35P unit, so they can see how it is purposely drawn in an 
attempt to avoid Ocean Reef community, and second, a map of 
Ocean Reef, so that the members can see for themselves where 
these 21 lots that were included in unit FL35P lie in relation 
to the State-owned conservation land that makes up the rest of 
unit FL35P, and in relation to the rest of Ocean Reef, which is 
excluded. I'm confident after reviewing these maps for 
yourselves, you will agree this is a technical error that 
warrants correction.
    The residents of Ocean Reef Community Association 
appreciate the importance of the Coastal Barrier Resources Act. 
CRCA has been, and continues to be, a positive force for 
environmental concerns in our community. We have voluntarily 
spent over half a million dollars on a project to restore the 
natural flow and improve the water qualities in the creeks of 
natural waterways around Ocean Reef. We started another 
voluntary project installing markers to protect seagrass beds 
by preventing motorized craft from entering the flats. We 
started a comprehensive recycling program which includes glass, 
paper, aluminum, plastic, newspapers, tires, batteries, 
cardboard, and white items such as refrigerators, stoves, and 
washer/dryers. We have the only tertiary sewage plant in the 
whole Florida Keys. We use reverse osmosis to irrigate our golf 
courses with desalinated water. We have, and continue to be, 
active supporters of the Everglades Restoration Project, the 
National Marine Sanctuaries Act, and this year's Coral Reef 
Resolution. Our interests in H.R. 2401 should not and cannot be 
viewed as anything other than a reflection of our efforts to 
correct what everybody admits was a mistake from the outset.
    The privately-owned residential properties in Ocean Reef 
were inadvertently included in FL35P, an Otherwise Protected 
Area of the Coastal Barrier Resources System, and as a result 
of that mistake, we, the homeowners, are now being denied 
Federal flood insurance. Even though this mistake was made in 
1990, we were not even made aware of this problem until 1995, 
because FEMA did not re-publish the maps for Monroe County 
until 1995. As soon as we became aware of the mistake, we began 
to look for ways to fix it. Unfortunately, after meeting with 
Fish and Wildlife, we learned that the only way to fix this 
mistake was by an act of Congress.
    Mr. Chairman and members of this Subcommittee, I stand 
before you today to ask you to please correct this mistake by 
supporting H.R. 2401 and allow the boundaries of CBRA's FL35P 
to be returned to that which Congress and the Fish and Wildlife 
always intended.
    The legal requirements of CBRA support H.R. 2401; the Fish 
and Wildlife supports H.R. 2401; our Congressman, Peter 
Deutsch, supports H.R. 2401, as well as our two Florida 
Senators. We now urge the Subcommittee's support as well.
    On a final note, on behalf of ORCA, I would like to thank 
Congressman Deutsch for his assistance in this matter. During 
what I realize is a very difficult and politically-sensitive 
time here in Washington, his support and assistance has been 
unwavering. That being said, in the face of such clear and 
convincing and non-controversial evidence, I urge the members 
of this Subcommittee to please allow this measure to move to 
markup quickly.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Topercer may be found at end 
of hearing.]
    Mr. Saxton. Mr. Topercer, thank you very much for taking 
your time to come here to articulate your view of this 
situation, and I might say that, because of those who have 
preceded you in explaining this situation to us, I think it's 
fair for me to say that both the administration and the members 
of this Subcommittee agree that a mistake was made, as you 
correctly point out, and that inasmuch as it does take an act 
of Congress to correct it, that is going to happen.
    Mr. Topercer. Thank you, sir.
    Mr. Saxton. So we appreciate your spending your time here 
with us today.
    Mr. Peterson and Mr. Connolly, likewise, we thank you for 
being here today to express your views relative to the 
conservation issue that you so articulately and adequately 
addressed. It seems to me that there is a very happy question 
being asked, and that is: Should we fund--should we authorize 
the expenditure of $15 million or $30 million? And the 
sentiment, I believe, from this Committee happens to be that we 
will authorize, I believe, $30 million on an annual basis, and 
as you heard me say while Don Barry was here, we hope that the 
administration will see fit to make a request that is something 
in excess of $15 million for fiscal year 1999.
    That having been said, I don't have any questions relative 
to the bill. I would like, however, because of what is the 
seeming emergent nature of the snow goose problem, to ask you 
to comment relative to the successful growth of the population, 
as well as what you see as--how you define the problem in terms 
of a habitat problem, and also if you could comment on what you 
see as the courses that we might follow to address the issue.
    Max, would you like to comment first on behalf of the 
International Association of Fish and Wildlife Agencies?
    Mr. Peterson. Yes. In a recent meeting in Phoenix, Arizona, 
that does include people from the United States and Canada 
both, we discussed this problem at some length. There is a 
technical committee now at work looking specifically at the 
options, what are the options to reduce this population. It, 
obviously, means less birds; we have to reduce that population, 
which tended to build up when there was less numbers of other 
birds.
    And so we will have, probably within the next--I think 
within the next six months, we'll have a series of options that 
will be laid out, and we'll be glad to be sure your Committee 
is kept abreast of those options. One, of course, is to 
increase the bag limits, which has already been done this year 
in that flyway, to try to get some more of them taking by 
hunters. But that may not be adequate. So we're looking at 
other options. So we will be keeping your Committee fully 
informed of that.
    Mr. Saxton. Mr. Connolly, let me--you heard Mr. Barry say 
that he was going to dispatch some folks who are knowledgeable 
about this in the Service to come and chat with us. I would 
like to invite you or your representatives to do likewise, so 
that we can work along with you in developing whatever 
potential solutions there may be.
    And I think it's fairly important that we move as quickly 
as possible because there are some Members of Congress who--and 
I don't say this in any disparaging way--who are ready to move 
forward with what they perceive as the appropriate courses of 
action, and it seems to me that we ought to talk about these 
things a little bit before we rush head-long into one course or 
another.
    So I'll have our staff try to coordinate some meetings in 
the near term or at least a meeting, so that we can understand 
your points of views on these issues.
    Mr. Connolly?
    Mr. Connolly. Well, thank you, Mr. Chairman. We would 
consider it a privilege and honor to participate with you and 
your staff, and I am deeply appreciative of your sense of 
urgency concerning this matter.
    I think there's several points to keep in mind in this 
situation, and first of foremost is I think some people are 
beginning to presume that this is a generic snow goose problem, 
when in fact it's one confined to certain snow geese 
populations. It is not something that is in the Atlantic flyway 
nor in the Pacific flyway. We're talking about birds in the 
central part of the Nation, the ones that inhabit certain 
portions of the Canadian sub-Arctic region.
    It's been tackled by a diverse group of participants under 
the leadership of the International Association, and they've 
had a lot of scientific studies and a lot of examinations of 
the various options, and there have been recommendations made 
to the Service. And I think having this sense of urgency by the 
Congress will facilitate getting a game plan in action, most 
importantly to me, by next year. And we have to, I think, give 
the American sportsmen a chance to show that expanded wildlife 
management opportunities may bring a resolution to this, and 
examine and monitor what occurs, and if that doesn't do the 
trick, then other matters will have to be contemplated. But I 
think we have to have, as in any business situation, a business 
plan produced, and have each of those steps monitored and 
analyzed every step of the way. And I think that is in motion.
    Mr. Saxton. Mr. Farr and I were chatting just privately 
here about this issue just a few minutes ago, and just by way 
of question, we were wondering whether snow geese have any 
natural enemies, and if so, is there an issue involving the 
lack of such, or what's----
    Mr. Connolly. Well, it's a complicated problem, and it's 
been exacerbated by land use changes that man has created on 
the wintering grounds and on the staging grounds of snow geese.
    Mr. Saxton. Lots of food?
    Mr. Connolly. Right. Unlike ducks, where they breed is out 
of reach of most of man's influence other than by aboriginal 
peoples, and interestingly, the aboriginal peoples seem to be 
more attracted to the dark geese than they do the light geese, 
which is one of the reasons Congressman Gilchrest and his 
constituents are not able to go after the Canada geese, which 
once migrated to the eastern shore of Maryland.
    So it's a very complex international wildlife problem, but 
I think the options that are being laid out and presented to 
the Fish and Wildlife Service are prudent ones that we need to 
get a consensus behind, roll up our sleeves, and commit to 
doing something about it next year.
    But there have to be some expansions in what the 
opportunities are given to waterfowlers, and some incentives 
and some education that will go along with that.
    Mr. Saxton. Thank you. Mr.----
    Mr. Peterson. Could I add just a word?
    Mr. Saxton. Sure. Excuse me, Max. You can turn off the red 
light, if you don't mind. Thank you very much.
    Go ahead.
    Mr. Peterson. As Mr. Connolly has eloquently stated, this 
is not a problem all over. It's a problem only because of the 
increase in population in some areas.
    In this upcoming briefing, we will ask some Canadian 
provinces to participate in the discussion because a large 
number of these snow geese, as other geese and ducks originate 
in Canada--so the solution probably will have to be a 
continental solution, not just one in the United States.
    On the issue of predators, yes, they do have natural 
predators, but when you get a population buildup like this, 
predators don't increase as fast as the population increases, 
and also there's some limits to what predation will do in 
particular areas where these breed.
    But that's all being looked at by the technical group that 
we established under the international auspices, which does 
include Ducks Unlimited people; it includes Fish and Wildlife 
Service people; it includes provincial people from Canada, and 
the Canadian Wildlife Service people. And I think your sense of 
urgency is helpful to us because we do need to say we need to 
move on with this and not wait for five more years of technical 
information.
    Mr. Saxton. Thank you.
    Mr. Farr?
    Mr. Farr. Well, thank you very much, Mr. Chairman, and I 
appreciate having this hearing.
    I wanted to follow up on Mr. Peterson's comment about the 
non-game species needing upwards of $350 million, I think you 
indicated. Has there been any discussion of sources for that 
funding? Would the Partnership for the Wildlife Act be an 
appropriate vehicle for permanently appropriating a source of 
funding or should we have a dedicated source such as the Wild 
Burro Fund, or how about the idea of a non-game wildlife stamp? 
I mean, duck stamps have been very successful. What do you 
think about proposals of how you meet your need for finding 
funding for those purposes?
    Mr. Peterson. Congressman Farr, there is an ongoing effort 
I think, as you may know, that we call Team with Wildlife that 
would address that. We have looked at everything from a stamp 
of some kind to paralleling Wild Burro and Pitman-Robertson by 
simply expanding the current excise tax to include some 
additional products that would be dedicated to a third fund.
    And we've meeting ongoing for the last several months with 
different Members of Congress. I'll be sure that we come up and 
brief you in detail in what we're doing on that, and we do have 
a proposal. We are consulting with Members of Congress about 
whether they would like to--what burden of that they would like 
to deal with, and we'll include you in the briefing for that.
    Mr. Farr. Thank you. And then that would be a dedicated 
source, then, for those species----
    Mr. Peterson. Yes, yes, exactly similar to Wild Burro and 
P-R in terms of being dedicated, distributed estates on a 
formula basis, so that the state would make the decision on how 
to spend it. It would be voluntary, nonregulatory, as the North 
American Wetlands Conservation Act is, and we believe that it 
would enhance the same kind of partnerships that Mr. Connolly 
talked about for waterfowl in the non-game area. There are a 
lot of people that would be interested in participating if they 
had a vehicle.
    Mr. Farr. I appreciate that. Is your thought that you'd 
have this put together by the next legislative session, next 
year, or----
    Mr. Peterson. We have it now. We would hope to see action 
on it next year, yes. And we'll be glad, as I say, to go over 
it with you in detail.
    Mr. Farr. Thank you. I appreciate that.
    Thank you, Mr. Chairman.
    Mr. Saxton. Thank you. The gentleman from Maryland.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    I have just a question or two for Mr. Topercer--Topercer?--
--
    Mr. Topercer. Topercer.
    Mr. Gilchrest. Topercer--before I go to Max, who I see more 
here than I do in the Rocky Mountains.
    [Laughter.]
    Mr. Gilchrest. What is different in your community under 
the present regulatory regime that would change with this new 
designation, if the designation is lifted?
    Mr. Topercer. If it's left as it currently is?
    Mr. Gilchrest. No. What's the difference between the way 
you are now to the way you want to become? What restrictions do 
you have as a community to your community?
    Mr. Topercer. The only restrictions are for these 21 lots 
that are restricted and cannot get flood insurance, because the 
line was erroneously drawn when FL35P was incorporated.
    Mr. Gilchrest. So that's it? And once that gets lifted, 
those 22 houses----
    Mr. Topercer. It's 21 lots total. There are currently----
    Mr. Gilchrest. Are there houses on those lots?
    Mr. Topercer. Yes. At the time it was done, there were nine 
houses and there are now ten or eleven, I think, on there now.
    Mr. Gilchrest. Oh, I see. So besides the 10 or 11 houses, 
the other lots would be----
    Mr. Topercer. Able to be developed, that's correct.
    Mr. Gilchrest. I see. You wouldn't want them to be made 
into a park, so snow geese could go down there in a habitat, I 
guess?
    [Laughter.]
    Mr. Topercer. I haven't seen a snow goose down there, 
Congressman.
    [Laughter.]
    Mr. Gilchrest. Thank you. I just wanted to understand that 
one point.
    Mr. Peterson and Mr. Connolly, sort of a colloquial little 
question dealing with my district. Can either one of you tell 
me--20 years ago, you couldn't find snow geese on the eastern 
shore of Maryland; now there are more snow geese than honeybees 
in some areas. Do you know what has attracted the snow goose to 
the eastern shore of Maryland, to the numbers that they are 
there now? Is it agricultural practices; the weather's a little 
warmer; they've changed their--they don't go to North Carolina?
    Mr. Peterson. There's several factors. Gary Taylor, who's 
from Maryland, who used to be Director of the Fish and 
Wildlife, is in our office, and he and I have discussed this. 
And several things happened. There's a tendency to build a lot 
of additional water developments in that part, you know, to 
have a lot more water. People like water on their land.
    Mr. Gilchrest. Oh, I see.
    Mr. Peterson. And then there are crops around that land 
that are attractive to the snow geese. And we've had several 
mild winters, so that they don't go as far south. They hang up 
further north. All of those things have concentrated more snow 
geese on the eastern shore of Maryland, where I've hunted for 
about 20 years. When I first used to hunt over there, I saw ten 
times as many Canada geese as I did snow geese, and now the 
reverse is true. There's been a number of factors like that. 
The increase in population of snow geese, for example, is one 
reason you've got more of them.
    Mr. Gilchrest. Thank you.
    Mr. Connolly. Let me footnote that, Congressman. It's been 
land use change. When many, many years ago the eastern shore of 
Maryland had no geese to speak of, the Chesapeake was known as 
a duck estuary that attracted principally diving ducks and a 
smattering of black ducks. With the advent of cereal grain 
being extensively planted in the watersheds of the Chesapeake, 
you

began to attract Canada geese, which were opportunistic and 
they fed on the cereal grain residual that was left behind in 
harvesting.
    Snow geese, both on the tundra and on the wintering 
grounds, fed the same way in each place, which was to use their 
bills to pull up tubers and roots, and use the rich nutrients 
that were found in that on the tundra as well as in the salt 
marshes, which is where they principally fed.
    As land use changed and there were more and more advents of 
big fields with residual grain, the snow geese suddenly said--
the light dawns on my head--``It looks pretty good to me.'' And 
they, too, began to feed on the residual grains, and they 
flourished. Now the difference between the Canada goose and the 
snow goose is--and you see this, I'm sure, in your district--
the snow geese flocks are enormous, and as such, they are much 
more difficult to hunt than Canada geese. Consequently, they 
just kind of arithmetically keep growing, because there's not 
many spartan souls who have the tenacity to go out and set a 
spread of 2,000 decoys to bring in a 15,000 flock of snow 
geese, as opposed to the Canada geese which are much more 
vulnerable.
    Mr. Gilchrest. The Canada goose is much more orderly when 
they come in and when they leave. The snow geese are a buzz 
like bees the way they----
    Mr. Peterson. They also spiral up. In my hunting over 
there, you look up and there's 10,000 snow geese, as Mr. 
Connolly says, there----
    Mr. Gilchrest. Right.
    Mr. Peterson. And they get off of the lakes, and you think, 
man alive, we're going to find all kinds of snow geese, and 
they spiral up, and lo and behold, you don't get a single shot.
    Mr. Gilchrest. They make a great noise.
    I have just one more quick question before we have to 
leave. How many acreage of tundra have been destroyed in the 
central flyway because of the increased numbers of snow geese? 
Is there a number placed on that?
    Mr. Peterson. It's been several hundred thousand acres that 
have been detrimental effect on them. I don't know where you 
reach the point of being destroyed. But the adequacy of those 
tundra to support not only snow geese, but a wide variety of 
other kinds of critters, has been substantially reduced because 
of that damage.
    Mr. Connolly. It's almost irrevocable, Congressman, because 
it won't recover.
    Mr. Saxton. We're going to have to stop and go for this 
vote. But just let me say, to emphasize the point that Mr. 
Gilchrest is making, and that Mr. Peterson and Mr. Connolly are 
making, the snow goose population in 1976-77 was about 160,000 
in the eastern flyway, according to the numbers I have here, 
it's now just about 600,000. So we can see that the population 
has grown by almost four times, a multiple of four, in that 20-
year period. In the central flyway the population has grown 
from about 1.1 million to 2.8 million, almost tripled in that 
same period of time. So we really have a major issue here 
that's got to be somehow addressed.
    Thank you very much for coming. We're going to go and get 
this vote. The hearing is adjourned.
    [Whereupon, at 2:13 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
Statement of Daniel P. Beard, Senior Vice President for Public Policy, 
                National Audubon Society, Washington, DC

    Mr. Chairman, I am pleased to testify on the 
reauthorization of two very important pieces of legislation.
    On behalf of the National Audubon Society, we're pleased 
support enactment of H.R. 2556, a bill to reauthorize the North 
American Wetlands Conservation Act (NAWCA) and the Partnerships 
for Wildlife Act (PWA). Both of these laws have played a 
significant role in expanding habitat for birds. They are vital 
components of our nation's effort to prevent further 
degradation of habitat and to reclaim habitat that has been 
rendered unsuitable for birds and other wildlife by human 
activity.
    We concur with the Administration that NAWCA should be 
reauthorized at the current level of $30 million per year 
through the year 2003.
    In the seven years since it was enacted, NAWCA has proven 
to be an effective tool for wetlands conservation and 
restoration. Through the innovative use of partnerships between 
private citizens, corporations, native Americans, cities, 
states, conservation groups and the Federal Government, NAWCA 
has made progress toward its stated goal of ``conserv[ing] 
North American wetland ecosystems and waterfowl and the other 
migratory birds and fish and wildlife that depend on wetland 
habitats.''
    I would like to take this opportunity make a few points 
concerning the use of NAWCA funds for projects related to 
``other migratory birds and fish and wildlife.''
    First, it is clear from the language of the statute, as 
well as its legislative history, that NAWCA was intended to 
give equal attention to both game and nongame species. In 
enacting NAWCA, Congress made--among others--the following 
findings regarding nongame species:

          1. The maintenance of healthy populations of migratory birds 
        in North America is dependent on the protection, restoration, 
        and management of wetland ecosystems and other habitats in 
        Canada, as well as in the United States and Mexico.
          2. Wetland ecosystems provide essential and significant 
        habitat for fish, shellfish, and other wildlife of commercial, 
        recreational, scientific and aesthetic values.
          3. Almost 35 percent of all rare, threatened, and endangered 
        species of animals are dependent on wetland ecosystems.
          4. The 1988 amendments to the Fish and Wildlife Conservation 
        Act of 1980 require the Secretary of the Interior to identify 
        conservation measures to assure that nongame migratory bird 
        species do not reach the point at which measures of the 
        Endangered Species Act are necessary.
    Likewise, the stated purposes of NAWCA was to address both game and 
nongame species. The purposes of NAWCA, as stated in the law, are:

          1. To protect, enhance, restore, and manage an appropriate 
        distribution and diversity of wetland ecosystems and other 
        habitats for migratory birds and other fish and wildlife in 
        North America.
          2. To maintain current or improved distributions of migratory 
        bird populations.
          3. To sustain an abundance of waterfowl and other migratory 
        birds consistent with the goals of the North American Waterfowl 
        Management Plan and the international obligations contained in 
        the migratory bird treaties and conventions and other 
        agreements with Canada, Mexico, and other countries.
    Migratory birds are defined by NAWCA as:

          ``. . . [a]ll wild birds native to North America that are in 
        an unconfined state and that are protected under the Migratory 
        Bird Treaty Act, including ducks, geese, and swans of the 
        family Anatidae, species listed as threatened or endangered 
        under the Endangered Species Act, and species defined as 
        nongame under the Fish and Wildlife Conservation Act of 1980.''
    Funding of a wetlands project under NAWCA is, by statute, to be 
based on whether or not the project meets seven criteria. The 
legislative history indicates that ``[n]o single criterion is intended 
to be weighed more heavily than another with the obvious exception of 
the availability of sufficient non Federal money.'' One of the criteria 
is ``the extent to which any wetlands conservation project would aid 
the conservation of migratory nongame birds, other fish and wildlife 
and [threatened and endangered] species.''
    The legislative history of NAWCA supports and elaborates on the 
equal emphasis to be accorded nongame species. It is clear that the 
authors of PICA meant for nongame species to be given equal priority in 
NAWCA funding.
    There are presently a large number of nongame migratory bird 
species dependent on wetland areas that are in decline during some 
phase of their lifespans. For example, the Watchlist includes, among 
many others, the American Bittern, Black Rail, Franklin's Gull, and the 
Saltmarsh Sharp-tailed Sparrow, all of which are severely threatened by 
habitat degradation and loss due to the draining of wetlands for 
development. These birds are just four of many dozens of species that 
would benefit from NAWCA projects directly focused on protecting and 
restoring specific wetlands that support nongame migratory bird 
populations. Nongame migratory birds are clearly intended beneficiaries 
of NAWCA, and as such should receive attention.
    Currently, it difficult to tell whether NAWCA-supported projects 
are directed at game or nongame species. The annual report on projects 
that the Migratory Bird Conservation Committee (MBCC) is required by 
the law to prepare does not contain information sufficient to identify 
the species being targeted by respective projects. We would request 
that such a description of targeted species be required in the annual 
NAWCA/MBCC report, and we would urge you to include such a directive in 
the Committee report on H.R.2556.
    Section 16(a) of NAWCA requires that the Secretary of the Interior 
undertake an effort to establish agreements, modeled after the North 
American Waterfowl Management Plan or the Tripartite Agreement, 
specifically aimed at protecting nongame migratory birds. To the best 
of our knowledge, the Secretary has not undertaken any such efforts. We 
would ask that the Congress, in any reauthorization bill, urge the 
Secretary to carry out this directive.
    As I mentioned earlier, NAWCA is an important component in a larger 
mission to protect and restore habitat. Increased attention to nongame 
birds, and fish and wildlife through NAWCA is an efficient way to avoid 
the time and expense of listing and restoring species under the 
Endangered Species Act. We would urge that to the extent matching funds 
are available, an equal priority is assigned to providing NAWCA funding 
for nongame species projects.
    Audubon also supports the reauthorization of the Partnerships for 
Wildlife Act. Like NAWCA, PWA is a good example of pro-active 
legislation that prevents the time and expense of invoking the 
Endangered Species Act in order to protect species. PWA has been 
received enthusiastically by the public, as evidenced by the waiting 
list to join. This important program works not only for individual 
species, but also for the broader goal of creating a conservation 
ethic, and involving people directly in the protection of species. It 
is a program that gets people excited about protecting the natural 
world. This is clearly a worthy objective that should be supported and 
fully funded.
    Thank you for the opportunity to testify.

    [GRAPHIC] [TIFF OMITTED] T6445.001
    
    [GRAPHIC] [TIFF OMITTED] T6445.002
    
    [GRAPHIC] [TIFF OMITTED] T6445.003
    
    [GRAPHIC] [TIFF OMITTED] T6445.004
    
    [GRAPHIC] [TIFF OMITTED] T6445.005
    
    [GRAPHIC] [TIFF OMITTED] T6445.006
    
    [GRAPHIC] [TIFF OMITTED] T6445.007
    
    [GRAPHIC] [TIFF OMITTED] T6445.008
    
    [GRAPHIC] [TIFF OMITTED] T6445.009
    
    [GRAPHIC] [TIFF OMITTED] T6445.010
    
    [GRAPHIC] [TIFF OMITTED] T6445.011
    
    [GRAPHIC] [TIFF OMITTED] T6445.012
    
    [GRAPHIC] [TIFF OMITTED] T6445.013
    
    [GRAPHIC] [TIFF OMITTED] T6445.014
    
    [GRAPHIC] [TIFF OMITTED] T6445.015
    
    [GRAPHIC] [TIFF OMITTED] T6445.016
    
    [GRAPHIC] [TIFF OMITTED] T6445.017
    
    [GRAPHIC] [TIFF OMITTED] T6445.018
    
    [GRAPHIC] [TIFF OMITTED] T6445.019
    
    [GRAPHIC] [TIFF OMITTED] T6445.020
    
    [GRAPHIC] [TIFF OMITTED] T6445.021
    
    [GRAPHIC] [TIFF OMITTED] T6445.022
    
    [GRAPHIC] [TIFF OMITTED] T6445.023
    
    [GRAPHIC] [TIFF OMITTED] T6445.024
    
    [GRAPHIC] [TIFF OMITTED] T6445.025
    
    [GRAPHIC] [TIFF OMITTED] T6445.026
    
    [GRAPHIC] [TIFF OMITTED] T6445.027
    
    [GRAPHIC] [TIFF OMITTED] T6445.028
    
    [GRAPHIC] [TIFF OMITTED] T6445.029
    
    [GRAPHIC] [TIFF OMITTED] T6445.030
    
    [GRAPHIC] [TIFF OMITTED] T6445.031
    
    [GRAPHIC] [TIFF OMITTED] T6445.032
    
    [GRAPHIC] [TIFF OMITTED] T6445.033
    
    [GRAPHIC] [TIFF OMITTED] T6445.034
    
    [GRAPHIC] [TIFF OMITTED] T6445.035
    
    [GRAPHIC] [TIFF OMITTED] T6445.036
    
    [GRAPHIC] [TIFF OMITTED] T6445.037
    
    [GRAPHIC] [TIFF OMITTED] T6445.038
    
    [GRAPHIC] [TIFF OMITTED] T6445.039
    
    [GRAPHIC] [TIFF OMITTED] T6445.040
    
    [GRAPHIC] [TIFF OMITTED] T6445.041
    
    [GRAPHIC] [TIFF OMITTED] T6445.042
    
    [GRAPHIC] [TIFF OMITTED] T6445.043
    
    [GRAPHIC] [TIFF OMITTED] T6445.044
    
    [GRAPHIC] [TIFF OMITTED] T6445.045
    
    [GRAPHIC] [TIFF OMITTED] T6445.046
    
    [GRAPHIC] [TIFF OMITTED] T6445.047
    
    [GRAPHIC] [TIFF OMITTED] T6445.048
    
    [GRAPHIC] [TIFF OMITTED] T6445.049
    
    [GRAPHIC] [TIFF OMITTED] T6445.050
    
    [GRAPHIC] [TIFF OMITTED] T6445.051
    
    [GRAPHIC] [TIFF OMITTED] T6445.052
    

</pre></body></html>
